V'
v
NYC A No.2020-179
IN THE
SUPREME COURT OF THE UNITED STATES

ISIDRO ABASCAL-MONTALVO,
Petitioner,
V.
THE CITY OF NEW YORK,
Respondent.

PROOF OF SERVICE
I Isidro Abascal-Montalvo, do declare that on this date, August3, 2020, as required by
Supreme Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF CERTIORARI
with Appendixon each party to the above proceeding, and on every person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follow:
Barbara Graves-Poller
Assistant Corporation Counsel
100 Church Street
New York, NY 10007
(212)356-2275
bgraves@law.nyc.gov
I declare under penalty of perjury pursuant to 28 U.S.C. ยง 1746 that the foregoing is true and
correct.
Executed on August3, 2020.

